           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        DIRECT DEPOSITS FOR
  MULTIPLE TITLE XVI RECIPIENTS
  INTO THE SAME BANK ACCOUNT


    March 2007    A-02-06-25141




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      March 23, 2007                                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Direct Deposits for Multiple Title XVI Recipients into the Same Bank Account
           (A-02-06-25141)


           OBJECTIVE

           Our objective was to determine whether individuals were improperly receiving
           Supplemental Security Income (SSI) payments through multiple direct deposits to the
           same bank account.

           BACKGROUND

           Individuals who are age 65 or older, are blind or disabled, and have limited income may
           be eligible for SSI. 1 In Fiscal Year 2006, the Social Security Administration (SSA) paid
           approximately $41 billion to about 7.2 million SSI recipients. Over half of that amount
           was direct deposited into recipients’ bank accounts. Per SSA’s Program Operations
           Manual System (POMS), SSI recipients who are their own payees may have their
           payments deposited to single or joint ownership accounts. 2

           To administer SSI payments, SSA maintains a Supplemental Security Income Record,
           which includes the recipient’s name, Social Security number, address, bank account
                                                                               3
           information, representative payee information, and payment history. SSA designed
           the Supplemental Security Income Duplicate Payment Project (SSIDPP) to preclude an
           individual from receiving duplicate payments due to multiple SSI records. The Agency
           runs SSIDPP annually, and cases that meet the matching criteria are transmitted to the
           appropriate SSA office to resolve the discrepancies.



           1
               20 C.F.R. Part 416.
           2
               SSA, POMS, GN 02402.050.B.1. Account Titles.
           3
            Supplemental Security Income Record and Special Veterans Benefits, Social Security Administration,
           Office of Systems, Office of Disability and Supplemental Security Income Systems (ODSSIS). 71 FR
           1796, 1830-1834 (Jan. 11, 2006).
Page 2 - The Commissioner


The SSIDPP does not address the potential risk of individuals diverting funds using
multiple direct deposits since it neither matches bank account information nor identifies
unrelated individuals depositing payments into the same bank account. As such, we
were concerned that recipients who appeared to be unrelated yet shared bank
accounts may have been an indication the intended recipient was not receiving the full
benefit and use of their payments.

We identified 1,205 recipients who were in current pay status as of May 2006 and
whose SSI payments were direct deposited into 504 bank accounts (each bank account
received at least 2 SSI payments). These individuals had their SSI payments direct
deposited into the same bank account even though the recipients had no apparent
relationship and were not assigned a representative payee. We provided our data to
SSA, and its field office staff contacted the recipients to determine the nature of the
relationship between SSI recipients sharing bank accounts. SSA staff completed
reviews for 1,203 of the 1,205 individuals and the results of our review are described
below.

RESULTS OF REVIEW

The individuals we reviewed were eligible for SSI payments and knowingly sharing bank
accounts with other SSI recipients, but some received the wrong payment amounts. In
almost every case, the recipients were entitled to the SSI payments they received and
were sharing accounts with other recipients they knew and/or resided with (see
Appendix C). However, some of the recipients’ living arrangements were unknown to
SSA, which led to improper payments. Also, SSA staff did not fully develop some of the
cases, which also led to improper payments. In total, we identified $406,500 in
overpayments over a 2-year period. In that same period, the 1,205 recipients received
approximately $12 million in SSI payments. In addition, we found the controls over
identifying jointly owned bank accounts could be improved. Lastly, SSA referred
10 recipients to our Office of Investigations (OI) for further review.

IMPROPER PAYMENTS

We found that 148 (12 percent) of the 1,203 individuals reviewed were overpaid
approximately $406,500 because either they did not properly report their living
arrangements or SSA staff did not fully develop their records to ensure the proper
payment amount.

Of the 148 inaccurately paid recipients, 25 were receiving a payment because they
reported their marital status as single, even though they were married or met SSA’s
Page 3 - The Commissioner


criteria for being married 4 and were therefore subject to a lower monthly payment. One
couple had reported their marriage to SSA, but their records were not properly updated,
so they received inaccurate payments.

Of the 148 recipients with overpayments, 106 were members of a religious order that
had taken a vow of poverty and resided in housing provided by the order. The income
based on in-kind support and maintenance (ISM) 5 for these recipients was either not
counted or not fully charged. This occurred because the religious order provided its
members full support and maintenance and therefore the food and shelter was
countable as ISM. 6 However, we found SSA staff did not properly account for this
income.

For those cases where ISM was not fully charged, claims were generally not developed
in the Modernized Supplemental Security Income Claims System (MSSICS).
Consequently, the ISM was not automatically updated and was therefore understated,
which resulted in overpayments. Per SSA guidance, MSSICS is the preferred
mechanism for establishing initial claims, and it is important to retain a case in MSSICS
                    7
whenever possible.

For the remaining 17 of the 148 recipients, 10 were either friends or family members
who were overpaid for a variety of circumstances. Some were incarcerated or a fugitive
felon, residing outside the United States, receiving pension income, in living
arrangements that paid lower monthly payments than the arrangements known to SSA,
or voluntarily terminated their SSI payments. A determination could not be made for
seven recipients because they either could not be located or did not show up for their
appointment with SSA staff.

IMPACT OF IMPROPER PAYMENTS

To determine the resulting improper payments for the 148 recipients, we calculated
overpayment amounts using two methodologies. The first methodology applied
administrative finality rules, while the second methodology excluded administrative
finality. SSA can only collect overpayments to the point of administrative finality, which
is a period of 2 years from the date the overpayment is discovered. 8 While
administrative finality may limit what SSA may collect, the events that led to some of the
4
  For SSI purposes, a marital relationship is one in which members of the opposite sex are legally married
under the laws of the State where they have their permanent home; or married for Title II purposes; or
living together in the same household and holding themselves out as husband and wife to the community
in which they live (SSA, POMS, SI 00501.150).
5
  ISM is not cash but is actually food, or shelter, or some item that can be used to get one of these basic
need items. SSA, POMS, SI 00810.005.
6
    SSA, POMS, SI 00835.713.
7
    SSA, Administrative Message 04155 Revised, dated October 28, 2004.
8
 If income issues are involved, including ISM, the administrative finality period may be extended an
additional 2 months at the beginning of the period (SSA, POMS, SI 04070.030).
Page 4 - The Commissioner


overpayments discovered began before the point of administrative finality. Additionally,
we estimated the amount of the overpayments forward 12 months from the time the
overpayment was identified. The results are displayed in the following table.
                                       Unrecoverable
                                       Overpayments
       Description     Number of          Due to            Recoverable         12-Month
                                                                        9
                       Individuals     Administrative      Overpayments         Estimation        Total
                                          Finality
    Member of
    Religious Order         106           $708,301             $305,552          $177,104      $1,190,957
    Legally Married          17            $18,785              $47,955           $33,231         $99,972
    Married Per SSI
    Criteria                    8           $19,955              $25,697          $21,278         $66,930
    Friends or
    Roommates                   6               $96               $5,362           $5,856         $11,314
    Family Member               4            $6,240               $7,293          $10,474         $24,006
    Suspended – SSA
    Could Not Locate
    Recipient                 6            $66,371              $14,455           $16,446         $97,272
    Unknown                   1                $64                 $193                $0            $257
    Total                   148           $819,812             $406,506          $264,390      $1,490,708

BANK ACCOUNT OWNERSHIP

Recipients who have their SSI payments deposited into accounts with multiple SSI
deposits should inform SSA. The ownership, or titling, of accounts is important when
considering the resources available for SSI eligibility. If there is more than one owner of
                                                                                    10
an account, SSA assumes that funds in the account belong to all owners equally,
unless they can show SSA otherwise. If a shared account is only titled in the name of
one SSI recipient, the owner in the account title is assumed to own all the funds in the
account. 11

SSA did not identify issues concerning incorrect bank account titling for 928 of the
1,203 recipients reviewed. However, we identified 194 (16 percent) recipients who did
not have properly titled bank accounts. Specifically, we found that 112 recipients had
accounts that were owned by only 1 of the recipients, and the recipients sharing the
accounts were not related. The remaining 82 recipients were sharing bank accounts
with family members. In addition, we found that SSA staff could not determine the
ownership of the bank accounts for 81 (6 percent) of the 1,203 recipients because they

9
  Under the rule of administrative finality, retroactive correction of an erroneous monthly benefit amount is
usually limited to a period of 1 or 2 years from the date of discovery of the payment error. If income issues
are involved, including ISM, the administrative finality period may be extended an additional 2 months at
the beginning of the period. SSA, POMS, SI 04070.030. However, a determination or decision can be
reopened and revised at any time upon a finding of “fraud” or “similar fault.” SSA, POMS, SI 04070.010.
10
     SSA, POMS, SI 01140.205.
11
     SSA, POMS, SI 01140.200.
Page 5 - The Commissioner


did not provide proof of ownership when meeting with SSA staff or they did not keep
their interview appointments with SSA staff. From these 81 recipients, SSA referred
5 recipients to OI because of potential fraud.

OI REFERRALS

In addition to the 5 recipients discussed above, SSA staff referred another 5 recipients
to OI. The 10 recipients equated to 5 allegations sent to OI, since each allegation
involved 2 recipients. Of the five allegations, three allegations were opened and closed
and two allegations were opened as cases. For the allegations that were opened and
closed, OI determined that no further investigation was needed after its initial review
and they were referred to SSA for any administrative action. For one of the allegations
that was opened as a case, it was determined that the case did not meet prosecutorial
guidelines, but a restitution agreement was executed for the $1,800 overpayment. In
the other allegation opened as a case, OI has presented the case for prosecution. Five
of the 10 recipients referred to OI were part of the 148 recipients who were overpaid by
SSA. No overpayment was identified for the other five recipients.

CONCLUSION AND RECOMMENDATIONS
Based on the results of our review, we conclude that the SSI recipients reviewed were
generally eligible for SSI payments, but some received the wrong payment amounts.
We further conclude that opportunities exist for SSA to ensure the accuracy and
integrity of SSI payments, and recommend that SSA:
1. Remind its employees of the importance of establishing and retaining cases in
   MSSICS, which will help ensure the proper processing of cases with ISM type
   income.
2. Pursue recovery efforts, as warranted, for overpayments identified in this report.
3. Contact the recipients with improperly titled joint accounts to advise them to adhere
   to SSA policies for direct deposits.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D).




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Reasons for Multiple Direct Deposits
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
ISM      In-kind Support and Maintenance
MSSICS   Modernized Supplemental Security Income Claims System
OI       Office of Investigations
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSIDPP   Supplemental Security Income Duplicate Payment Project
                                                                      Appendix B

Scope and Methodology
In April 2005, we obtained a database of 1,018,885 records for Supplemental Security
Income (SSI) recipients in current pay status receiving direct deposits that contained at
least 2 records with matching Routing Transit and Account Numbers. From this
database, we removed records for individuals where there was a legitimate reason for
multiple direct deposits to the same bank account, such as accounts shared by
recipients with the same representative payee; spouses, children or family members;
and recipients residing in nursing and retirement homes, or receiving services from a
charitable organization.

At the end of November 2005, we eliminated those recipients who were no longer in
current pay status, had died, or were not receiving direct deposits, or whose accounts
were no longer receiving multiple direct deposits. At that time, we identified
2,419 recipients with 762 different bank accounts in 625 different District Offices.

We sent the file of 2,419 records to the Social Security Administration (SSA) in March
2006 for preliminary review. Based on concerns raised by SSA staff reviewing the
records, we further eliminated certain cases, such as cases with "Rush" cards (SSA-
approved debit cards) and Title VIII payments. We also attempted to eliminate religious
orders but were unable to exclude all religious orders since the data were inconsistent
regarding their living arrangements and in-kind support and maintenance (ISM).
Additionally, we updated the file in May 2006 to eliminate cases that were no longer in
current pay or multiple direct deposits. The remaining file included 1,205 individuals
whose SSI payments were direct deposited into 504 bank accounts (each bank account
received at least 2 SSI payments). These recipients had no apparent familial
relationship.

We provided our data to SSA along with a checklist/questionnaire and a request that
SSA staff contact the recipients and conduct face to face reviews to ascertain the
reason(s) for multiple SSI recipients receiving benefits in a single account. SSA
completed the reviews in July 2006 and delivered its results to us in late August 2006.
SSA did not provide a response for 2 of the 1,205 cases we had provided, nor did SSA
explain why the 2 cases were omitted from the Agency’s response to our request.

We used the following Program Operations Manual System sections to define the
related criteria.

   •   GN 02402.050 Account Titles
   •   GN 02402.055 Representative Payee Cases-Direct Deposit
   •   SI 00835.300 Presumed Maximum Value Rule
   •   SI 00810.005 What is Income


                                           B-1
   •   SI 00835.710 ISM Provided Residents of Private Nonprofit Residential Care
       Institutions
   •   SI 00835.713 Determining ISM for a Member of a Religious Order Who Moves
       into a Private Nonprofit Residential Care Institution
   •   SI 01110.000 Resources, General
   •   SI 01140.000 Types of Countable Resources
   •   SI 01140.200 Checking and Savings Accounts
   •   SI 01140.205 Joint Checking and Savings
   •   SI 02310.100 SSI Duplicate Payment Project
   •   SI 04070.030 Development Required When a Prior SSI Determination or
       Decision is Reopened

The results of our analysis were provided to the Customer Service Branch staff in the
Division of Operations Analysis and Customer Service—a component of the Office of
Public Service and Operations Support—which is under the Deputy Commissioner for
Operations.

We performed our audit in the New York Office of Audit from February through
October 2006. We found the data used for this audit were sufficiently reliable to meet
our objective. The entities audited were SSA’s field offices, under the Deputy
Commissioner for Operations. Our audit was performed in accordance with generally
accepted government auditing standards.




                                          B-2
                                                                        Appendix C

Reasons for Multiple Direct Deposits
As stated earlier, in almost every case, the recipients were entitled to the Supplemental
Security Income (SSI) payments they received and were sharing bank accounts with
other recipients they knew. The reasons for multiple direct deposits varied and are
summarized in the table below.

                      Reasons for
                Multiple Direct Deposits            Individuals       Percent
          Friends or Roommates                           445           37.0
          Religious Order                                249           20.7
          Family                                         203           16.9
          Pre-Approved by a District Office               82             6.8
          Married or Separated                            75             6.2
          Organizational Representative Payee             44             3.7
          Married per SSI Criteria                        22             1.8
          Suspended-Could Not Locate                      14             1.2
          Other                                           69             5.7
          Total                                        1,203            100

Recipients categorized as “other” included multiple direct deposit situations such as
check cashing facilities, credit union accounts, social service agencies or adult living
facilities.

The reasons for the multiple direct deposits varied. The most common link between
recipients sharing the same bank account was friends or roommates with no marital
relationship for SSI purposes followed by members of religious orders. We also found
family and spousal relationships that were not easily identified, for example, family
members with different surnames. Other reasons for the multiple direct deposits
included: pre-approval by a District Office and documented in the Modernized
Supplemental Security Income Claims System, accounts managed by organizational
representative payees and recipients who were not legally married, but were considered
married for SSI purposes.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      March 09, 2007                                                        Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye        /s/

Subject:    Office of the Inspector General (OIG) Draft Report, "Direct Deposits for Multiple Title XVI
            Recipients into the Same Bank Account" (A-02-06-25141)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “DIRECT DEPOSITS FOR MULTIPLE TITLE XVI RECIPIENTS INTO THE
SAME BANK ACCOUNT” (A-02-06-25141)

Thank you for the opportunity to review and provide comments on this draft report. The
objective of this audit was to determine whether individuals were improperly receiving
Supplemental Security Income (SSI) payments through multiple direct deposits to the same bank
account. One of the conclusions from this review was that, in practically every case, the
recipients were entitled to the SSI payments they received. The audit did reveal that some of the
recipients in this review were receiving incorrect SSI payments, but the audit does not correlate
them to SSI payments being directly deposited into accounts with other SSI recipients. Most of
the overpayments identified resulted from a failure on the part of the recipients to report changes
to the Social Security Administration (SSA) that could affect their payment amounts. The main
finding for an incorrect SSI payment was due to a change in living arrangements, not direct
deposit. It is the Agency’s goal to ensure that recipients receive the correct amount of benefits
and to avoid overpayments.

Our response to the recommendations is provided below.

Recommendation 1

Correctly calculate SSI payment amounts through the proper development of claims in the
Modernized Supplemental Security Income Claims System (MSSICS) for In-kind Support and
Maintenance (ISM) type income.

Comment

We agree. We will issue a reminder to employees regarding the importance of retaining SSI
cases in MSSICS to ensure the proper processing of those cases with ISM type income.

Recommendation 2

Pursue recovery efforts, as warranted, for overpayments identified in this report.

Comment

We agree. We will pursue recovery efforts for the identified recipients who received
overpayments.


Recommendation 3

Contact the recipients with improperly titled joint accounts to advise them that they need to
adhere to SSA policies for direct deposits.




                                                D-2
Comment

We agree. In addition, we will determine the proper course of action for recipients who are using
an agent to receive their benefit payments and a course of action for recipients who cannot
provide SSA with a bank account that shows ownership.




                                              D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, 212-264-5295

   Victoria Abril, Audit Manager, 212-264-0504

Acknowledgments

In addition to those named above:

   Robert Blake, Senior Auditor

   James Kim, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-02-06-25141.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
